                 U.S. ELECTION ASSISTANCE
                        COMMISSION
                OFFICE OF INSPECTOR GENERAL




                            FINAL REPORT:

                 Administration of Payments Received
                Under the Help America Vote Act by the
                   West Virginia Secretary of State



                   APRIL 28, 2003 THROUGH AUGUST 31, 2009




Report No.
E-HP-WV-04-09
March 2011
                        U.S. ELECTION ASSISTANCE COMMISSION

                                 OFFICE OF INSPECTOR GENERAL

                                1201 New York Ave. NW - Suite 300

                                      Washington, DC 20005



                                                                                    March 7, 2011


Memorandum


To:        Thomas Wilkey
           Executive Director

From:	     Curtis W. Crider
           Inspector General

Subject:	 Final Audit Report - Administration of Payments Received Under the Help America
          Vote Act by the State of West Virginia (Assignment Number E-HP-WV-04-09)

        We contracted with the independent certified public accounting firm of Clifton Gunderson
LLP (Clifton Gunderson) to audit the administration of payments received under the Help America
Vote Act (HAVA) by the West Virginia Secretary of State (SOS). The contract required that the
audit be done in accordance with U.S. generally accepted government auditing standards. Clifton
Gunderson is responsible for the attached auditor’s report and the conclusions expressed therein.

        In its audit of the SOS, Clifton Gunderson found that the state (a) did not contribute its
matching funds requirement to the Section 251 HAVA fund on a timely basis, resulting in lost
interest earnings, (b) did not transfer interest earned from the state general fund to the HAVA
revolving fund on loan repayments received from counties prior to April 2007, (c) did not require
the seven counties visited to maintain equipment inventory records that included all of the
information required by federal regulations, (d) did not complete semi-annual certifications for
SOS personnel working full-time on HAVA activities, (e) and the counties had not deposited in the
election fund program income from the sale of voter registration lists, and (f) SOS had not
reconciled the Election Fund and Revolving Loan Fund balances with the records maintained by the
State Treasurer’s Office.

       In its responses (Appendix A-1, A-2 and A-3), the SOS generally agreed with the report’s
findings and proposed corrective actions, but disputed the finding regarding interest due on the
revolving fund.

        On September 17, 2010 the U.S. Election Assistance Commission provided us with a written
response to the recommendations (Appendix A-4), which indicated that the U.S. Election
Assistance Commission would work with the state to resolve the issues in the report. We would
appreciate being kept informed of the actions taken on our recommendations as we will track the
status of their implementation. Please respond in writing to the finding and recommendation
included in this report by May 7, 2011. Your response should include information on actions taken
or planned, targeted completion dates, and titles of officials responsible for implementation.
        The legislation, as amended, creating the Office of Inspector General (5 U.S.C. § App.3)
requires semiannual reporting to Congress on all audit reports issued, actions taken to implement
audit recommendations, and recommendations that have not been implemented. Therefore, this
report will be included in our next semiannual report to Congress.

       If you have any questions regarding this report, please call me at (202) 566-3125.
                             
                             

            PERFORMANCE AUDIT REPORT


    ADMINISTRATION OF PAYMENTS RECEIVED UNDER

                        THE

              HELP AMERICA VOTE ACT

                      BY THE

              STATE OF WEST VIRGINIA


         April 28, 2003 Through August 31, 2009



              UNITED STATES ELECTION
              ASSISTANCE COMMISSION




                                                    
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
                       
 




                            a1 
                                                  TABLE OF CONTENTS




                                                                                                                              PAGE


EXECUTIVE SUMMARY ............................................................................................................ 1


BACKGROUND.......................................................................................................................... 2


AUDIT OBJECTIVES ................................................................................................................. 3


SCOPE AND METHODOLOGY ................................................................................................. 4


AUDIT RESULTS ....................................................................................................................... 4


APPENDICES


Appendix A-1 to A-3: Secretary of State Response to Audit Results .................................. 13


Appendix A-4: U. S. Election Assistance Commission Response to Draft Report............. 21


Appendix B: Audit Methodology ............................................................................................ 24


Appendix C: Monetary Impact as of August 31, 2009........................................................... 26

                        U.S. Election Assistance Commission

        Performance Audit of the Administration of Payments Received Under the

                  Help America Vote Act by the State of West Virginia


EXECUTIVE SUMMARY

Clifton Gunderson LLP was engaged by the U.S. Election Assistance Commission (EAC or the
Commission) Office of Inspector General to conduct a performance audit of the West Virginia
Secretary of State (SOS) for the period April 28, 2003 through August 31, 2009 to determine
whether the SOS used payments authorized by Sections 101, 102, and 251 of the Help America
Vote Act of 2002 (HAVA or the Act) in accordance with HAVA and applicable requirements;
accurately and properly accounted for program income and property purchased with HAVA
payments; and met HAVA requirements for Section 251 funds for an election fund and for a
matching contribution. We did not include a determination of whether the SOS and its
subgrantees met the requirements for maintenance of a base level of state outlays because the
Commission is reviewing its guidance on the applicability of the maintenance of a base level of
state outlays to the SOS’s subgrantees.

In addition, the Commission requires states to comply with certain financial management
requirements, specifically:

   •	 Comply with the Uniform Administrative Requirements for Grants and Cooperative
       Agreements with State and Local Governments (also known as the “Common Rule”) as
       published in the Code of Federal Regulations 41 CFR 105-71.

   •	 Expend payments in accordance with cost principles for establishing the allowance or
       disallowance of certain items of cost for federal participation issued by the Office of
       Management and Budget (OMB) in Circular A-87.

   •	 Submit detailed annual financial reports on the use of Title I and Title II payments.

We conducted this performance audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on the audit objectives. Because of inherent
limitations, a study and evaluation made for the limited purposes of our review would not
necessarily disclose all weaknesses in administering HAVA payments.

Our audit concluded that the SOS did not account for and expend HAVA funds in accordance
with the requirements mentioned above for the period from April 28, 2003 through August 31,
2009. We noted exceptions needing SOS’s management attention as follows:

   •	 The state did not contribute its matching funds requirement to the Section 251 HAVA
       fund on a timely basis, resulting in lost interest earnings, estimated to be $96,831
       through August 31, 2009.

   •	 The state did not transfer interest earned from the state general fund to the HAVA
       revolving fund on loan repayments received from counties prior to April 2007, estimated
       to be $13,021 through August 31, 2009.

                                                1
    •	 The seven counties we visited did not maintain equipment inventory records that
        included all of the information required by federal regulations, such as cost, acquisition
        date, per cent of federal funding, or condition, and were not updated when State Voter
        Registration System (SVRS) equipment had been disposed of and replaced.

    •	 The SOS did not complete semi-annual certifications for personnel working full-time on
        HAVA activities.

    •	 The state and the counties have not deposited in the election fund program income from
        the sale of voter registration lists funded with HAVA proceeds or reported the totals to
        the EAC. Through August 31, 2009 the SOS had received net program income of
        $219,410 from this activity. Only one of the seven counties we visited had maintained
        records of the net sales amounting to $34,191.

    •	 The SOS had not reconciled the Election Fund and Revolving Loan Fund balances with
        the records maintained by the State Treasurer’s Office to ensure accurate reporting of
        data on the Financial Status Report (FSR) for Sections 101 and 251.

We have included in this report as Appendices A-1, A-2 and A-3 the SOS management’s formal
responses to the findings and recommendations dated December 29, 2009, February 11, 2010
and August 12, 2010, respectively. Although we have included management’s written responses
to our findings and recommendations, such responses have not been subjected to the audit
procedures and, accordingly, we do not provide any form of assurance on the appropriateness of
the responses or the effectiveness of the corrective actions described therein.

BACKGROUND

HAVA created the Commission to assist states and insular areas with the improvement of the
administration of federal elections and to provide funds to states to help implement these
improvements. HAVA authorizes payments to states under Titles I and II, as follows:

    •	 Title I, Section 101 payments are for activities such as complying with Title III of HAVA for
        uniform and nondiscriminatory election technology and administration requirements,
        improving the administration of elections for federal office, educating voters, training
        election officials and poll workers, and developing a state plan for requirements
        payments.

    •	 Title I, Section 102 payments are available only for the replacement of punch card and
        lever action voting systems.

    •	 Title II, Section 251 requirements payments are for complying with Title III requirements
        for voting system equipment; and for addressing provisional voting, voting information,
        statewide voter registration lists, and voters who register by mail.

Title II also requires that states must:

    •	 Have appropriated funds “equal to 5 percent of the total amount to be spent for such
        activities [activities for which requirements payments are made].” [Section 253(b)(5)].




                                                 2
    •	 “Maintain the expenditures of the state for activities funded by the [requirements] payment
        at a level that is not less than the level of such expenditures maintained by the state for
        the fiscal year ending prior to November 2000.” [Section 254 (a)(7)].

    •	 Establish an election fund for amounts appropriated by the state “for carrying out the
        activities for which the requirements payment is made,” for the federal requirements
        payments received, for “such other amounts as may be appropriated under law,” and for
        “interest earned on deposits of the fund.” [Section 254)(b)(1)].

AUDIT OBJECTIVES

The objectives of our audit were to determine whether the West Virginia SOS:

    1.	 Used payments authorized by Sections 101, 102, and 251 of HAVA in accordance with
        HAVA and applicable requirements;

    2.	 Accurately and properly accounted for property purchased with HAVA payments and for
        program income;

    3.	 Met HAVA requirements for Section 251 funds for an election fund and for a matching
        contribution. We did not determine whether the SOS met the requirement for
        maintenance of a base level of state outlays, because the Commission is reviewing its
        guidance on the applicability of the maintenance of a base level of state outlays to
        subgrantees of the SOS.

In addition, to accounting for HAVA payments, the Act requires states to maintain records that
are consistent with sound accounting principles that fully disclose the amount and disposition of
the payments, that identify the project costs financed with the payments and other sources, and
that will facilitate an effective audit. The Commission requires states receiving HAVA funds to
comply with certain financial management requirements, specifically:

    1.	 Comply with the Uniform Administrative Requirements for Grants and Cooperative
        Agreements with State and Local Governments (also known as the “Common Rule”) as
        published in the Code of Federal Regulations at 41 CFR 105-71.

    2.	 Expend payments in accordance with cost principles for establishing the allowance or
        disallowance of certain items of cost for federal participation issued by the OMB.
                                                                                                         1
    3.	 Submit detailed annual financial reports on the use of Title I and Title II payments.




1 EAC requires states to submit annual reports on the expenditure of HAVA Sections 101, 102, and 251 funds. For
Sections 101 and 102, reports are due on February 28 for the activities of the previous calendar year. For Section
251, reports are due by March 30 for the activities of the previous fiscal year ending on September 30.




                                                        3
SCOPE AND METHODOLOGY

We audited the HAVA funds received and disbursed by the SOS from April 28, 2003 through
August 31, 2009 (75-month period) as shown in the following table.


                                                      FUNDS RECEIVED
     TYPE OF           EAC            PROGRAM            STATE       INTEREST            TOTAL            FUNDS           DATA

     PAYMENT         PAYMENT           INCOME            MATCH        EARNED           AVAILABLE        DISBURSED         AS OF


     Section 101     $    2,977,057   $           -      $         -   $     102,558   $    3,079,615   $    2,869,626   8/31/2009
     Section 102          2,349,474               -                -         111,131        2,460,605        2,460,605   8/31/2009
     Section 251         15,303,569       2,048,206          805,451       1,149,890       19,307,116       16,010,563   8/31/2009

             Total   $ 20,630,100     $ 2,048,206       $    805,451   $   1,363,579   $ 24,847,336     $ 21,340,794     8/31/2009


Our audit methodology is set forth in Appendix B.
AUDIT RESULTS
We conducted this performance audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on the audit objectives. Because of inherent
limitations, a study and evaluation made for the limited purposes of our review would not
necessarily disclose all weaknesses in administering HAVA payments.
We concluded that the SOS did not account for and expend HAVA funds in accordance with the
requirements mentioned above. Exceptions identified include the state’s failure to timely deposit
the required five percent state matching funds and the applicable interest to the election fund;
failure to timely transfer interest earnings from the state general fund to the HAVA revolving loan
fund; failure to properly account for equipment purchased with federal funds; failure to maintain
semi-annual personnel certifications; failure to deposit program income earned from the sale of
voter registration lists to the election fund; failure to reconcile the SOS’s fund balance for the
revolving loan fund and the election fund to the West Virginia State Treasurer’s Office (STO)
fund balances, and the determination of whether the SOS and its subgrantees met the
requirement for maintenance of a base level of state outlays which was specifically omitted from
our scope of work as explained above. The SOS generally agreed with the findings and
recommendations and has taken action on or is working to resolve the exceptions described
below as set forth in Appendices A1, A2 and A3. However, the SOS disputed the finding
regarding interest due on the revolving fund, and detailed their objection in Appendix A-2.
I.     Interest on State Match
West Virginia established an election fund to hold HAVA funds in accordance with the
requirements of HAVA Section 254(b)(1). In addition to federal funds received by West Virginia,
HAVA requires that the election fund also hold the five percent state matching funds that
enabled West Virginia to qualify for the federal HAVA Section 251 funds. Furthermore, interest
earned from the investment of the monies must also be deposited into the election fund. The
timely deposit of interest earnings produces a compounding effect that adds additional funds to
the program.


                                                                   4
West Virginia received $15,303,569 in Section 251 funds on June 28, 2004. West Virginia’s
matching requirement was $805,451 which also should have been deposited on June 28, 2004
However, the state did not deposit the matching funds until May 17, 2007. Because the
matching funds were not deposited until almost three years after West Virginia received its
federal HAVA Section 251 funds, interest earnings of $91,230 were not deposited into the
election fund. Furthermore, until the state transfers the interest into the election fund, the
balance of the interest due the fund is increasing because the State Treasurer invests any
unexpended HAVA funds and they are continuing to earn additional interest. We calculated that
an additional $5,601 in such interest should be deposited into the election fund as of August 31,
2009.

HAVA Section 254 (b) (1) requires that the following monies be deposited into the state’s
election fund:

       D.     Interest earned on deposits of the fund.

Recommendation:

1.	 We recommend that West Virginia transfer the $91,230 of interest owed on $805,451 to the
    election fund for the period from June 2004 through August 2009, plus the additional
    compounded interest of $5,601 as of August 31, 2009 and any additional compounded
    interest owed through the date of the transfer.

SOS Response:

The matching funds were deposited by the state on June 12, 2003. However, the matching
funds were not placed in an account which credited interest back to the HAVA funds until May
17, 2007.

The Secretary does not dispute the lost interest, and compounded interest, amounts calculated
by the auditors. Nor does the Secretary contest the conclusion that the interest should have
been credited to the HAVA funds.

The Secretary does object to the proposed corrective action recommended and provided further
explanation below:

Some Counties in West Virginia spent $2,683,383 of their own, non-HAVA monies – which has
been recognized by EAC as qualifying for matching funds (see Mr. Edgardo Cortes’ letter to Mr.
Jason Williams dated October 24, 2007) to upgrade their voting systems as required by HAVA.
Had those counties not spent the non-HAVA monies, the state would have been required to
spend HAVA monies to upgrade the counties’ systems. Had the state spent the $2,683,383
from HAVA monies to upgrade the counties’ systems, then, during the entire timeline from June
28, 2004 through the present, the balance of the election fund would have been much less than
the actual balance plus the missing interest amounts.

Rather than requiring the state to transfer an amount equal to the $91,230 in initially lost
interest, plus $5,601 in lost compounded interest, plus any additional compound interest lost
since August 31, 2009, the Secretary proposes crediting the total lost interest against the
$2,683,383 in unclaimed matching funds.



                                               5
II.	 Interest on the Revolving Loan Fund

West Virginia election officials offered to use HAVA funds to pay for the full cost of certain voting
equipment provided to its counties. For those counties that accepted the state’s approved voting
equipment the state paid the full price. Some counties decided to purchase additional
equipment. These counties could use a combination of county funds and a loan from the HAVA
election fund to finance any cost over what the state had offered to pay. The counties that
exercised this option had to repay the loans from the HAVA funds into a revolving loan fund
over a five year period. This revolving loan fund will be used to provide additional loans to
counties to support future election activities including the purchase of voting equipment. The
state made loans from the HAVA election fund of approximately $3,310,056. Loan repayments
as of August 31, 2009 totaled $1,274,185. County repayments of these loans have been
deposited in a state fund. On December 3, 2008 the Election Assistance Commission approved
the state’s use of the Revolving Loan Fund (RLF), but advised the state that program income,
including loan repayments and interest on the repayments be reserved for uses authorized by
HAVA.

The state began receiving loan repayments from the counties in May 2006. The loan
repayments were recorded in the RLF, a HAVA election fund account. The repayments were
pooled with other state monies and interests earned were deposited to the state’s general fund.
However, the state’s general fund did not transfer to the RLF interest earned by the pooled
monies from May 17, 2006 to April 23, 2007 applicable to the RLF. The state began transferring
interest earned on April 24, 2007. We determined that this resulted in an interest shortfall in the
RLF of approximately $12,246 from May 17, 2006 through April 23, 2007. There is also an
additional estimated interest earned of $775 from the compounding effect on this amount for the
period May 2007 through August 31, 2009. The SOS should also calculate and request the
transfer to the RLF of any additional compounded interest owed through the date of transfer.

HAVA Section 254 (b) (1) requires that the following monies be deposited into the state’s
election fund:

       D.      Interest earned on deposits of the fund.

Recommendation:

2.	 We recommend that SOS officials transfer from the state’s general fund to the RLF the
    interest shortfall estimated to be $13,021 ($12,246 plus $775) through August 31, 2009, plus
    any additional interest, including compounded interest owed through the date of transfer.

SOS Response:

The SOS agreed that the interest earned by the RLF from May 17, 2006 through April 23, 2007
was not transferred to the RLF.

III.	 Property Management

The equipment inventory listings provided to us by the SOS, and each of the seven counties we
visited, did not conform to the requirements of 41 C.F.R. 105-71.132 (d)(1), (the Common Rule)
for tracking equipment purchased with federal funds. The listings only included a description of



                                                 6
the equipment, serial number and the location. Moreover, the listings were not updated for
State Voter Registration System (SVRS) equipment that had been disposed of and replaced.

The Uniform Administrative Requirements for Grants and Cooperative Agreements with State
and Local Governments, 41 CFR 105-71.132 Equipment states that

property records must be maintained that include a description of the property, serial number
or other identification number,the source of property,who holds the title, the acquisition date,
costs  of the  property, percentage of federal participation in the cost of the property, the
locations, use and condition of the property, and any ultimate disposition data including the
date of disposal and sale price of the property.

Recommendation:

3.	 Ensure that the property management records of the SOS and the counties have at least the
    minimum information required by the Common Rule. The SOS should emphasize to the
    counties that any changes to the equipment listing, including SVRS equipment, should be
    reported to the SOS.

SOS Response:

The Secretary concurs with the findings and the recommended corrective action designed to
remedy a situation that has existed since 2004.

Once the matter was brought to her attention in August, 2009 the Secretary immediately
adopted and implemented proper inventory controls and reporting requirements for the counties.
In January, 2010 and each year thereafter, the counties will be sent a survey by the Secretary of
State to update all the required information.


IV. Personnel Certifications

The SOS did not complete semi-annual certifications for an employee who worked full-time or
solely on the HAVA activities. The state charged this person’s entire salary and benefits to the
HAVA election fund. During the period July 1, 2007 through August 31, 2009, the SOS did not
require the employee to prepare semi-annual certifications that 100 percent of their time had
been spent on HAVA related activities. Election officials provided semi-annual certifications for
the period March 7, 2005 through June 30, 2009; however each of these certifications were
signed on October 8, 2009. Between July 1, 2007 and August 31, 2009, the state charged the
HAVA election fund $124,276 for the salary and benefits of the full-time employee.

We tested the period July 1, 2007 to August 31, 2009 since the state’s single audits for the fiscal
years ended June 30, 2006 and 2007 had addressed this issue. The Single Audit Reports of the
State of West Virginia for the fiscal years ended June 30, 2006 and 2007 disclosed that the
SOS did not have records to support employee salaries and benefits charged to the HAVA
election fund.

In response to the findings reported in the Single Audit Reports, the EAC notified the state that
the salaries and benefits charged to HAVA were disallowed and the funds should be returned to
the HAVA election fund. The findings included salaries and benefits for full-time and part-time
employees.


                                                    7
The SOS subsequently appealed the EAC decision with regard to full-time employees and
provided affidavits certifying that the full-time employees worked only on HAVA related activities
during the fiscal years ended June 30, 2006 and 2007. The SOS also stated that new
procedures had been implemented to assure that full-time employees complete the required
certifications on a timely basis.

Based on the appeal filed by the SOS, the EAC determined that only the salaries and benefits
charged to the HAVA election fund for the part-time employees were disallowed and should be
returned to the fund.

OMB Circular A-87, in Attachment B Section 8(h) (3) requires that:

       (3) Where employees are expected to work solely on a single federal award or cost
       objective, charges for their salaries and wages will be supported by periodic
       certifications that the employees worked solely on that program for the period covered
       by the certification. These certifications will be prepared at least semi-annually and will
       be signed by the employee or supervisory official having firsthand knowledge of the work
       performed by the employee.

Recommendation:

4.	 We recommend that the SOS resolve with the EAC the appropriate corrective action
    regarding the lack of periodic certifications.

SOS Response:

The Secretary concurs with the findings of the auditor. Personnel and policy actions have taken
place to correct the misunderstanding about when the certifications should be filed. Future
certifications will be filed in a timely fashion.

However, the Secretary urges the EAC to determine that certifications were accurate, although
untimely filed, and that the payroll reflects actual HAVA related work performed and the state
should not be required to transfer any part of the total claimed payroll expense.

Should it be determined that some, or all, of the payroll should be reimbursed, the Secretary, for
the reasons given in response to NFR reference 2400.05, urges that the state be allowed to
credit the $2,683,383 in unclaimed matching funds against the total due.


V.	 Program Income

The SOS has not deposited program income, generated by the SOS and the counties from the
sale of voter registration lists that was in excess of the costs associated with preparing the lists,
into the HAVA election fund. Both the SOS and each of the seven counties we visited, prepared
these lists from the SOS’s HAVA funded voter registration system. The program income has
also not been reported to the EAC as required.




                                                 8
The SOS received a total of $219,410 in income, net of production costs, from the sale of voter
registration lists. Of this total, $157,595 was transferred to the counties and $61,815 was
retained by the state. The counties we visited also sold voter registration lists. Except for one
county, none of these counties maintained records of the amounts of income they generated.
The one county that maintained records received approximately $45,691 from the sale of voter
registration lists. The county spent approximately $11,500 of this amount on election related
expenses, including the replacement of state-provided voter registration equipment which had
become inoperable.

The Uniform Administrative Requirements for Grants and Cooperative Agreements with State
and Local Governments, 41CFR § 105-71.125, states that:
      program income means gross income receive by the subgrantee directly generated by
      a grant supported activity, or earned only as a resul t of the grant agreement during the
      grant period. EAC has authorized states to add program income to the HAVA grant and
      use the income for purposes and under conditions of the grant.

The Uniform Administrative Requirements for Grants and Cooperative Agreements with State
and Local Governments, 41CFR § 105-71.141 states that:
      each grantee will report program outlays and program income on a cash or accrual basis
      as prescribed by the awarding agency.

According to SOS election officials the state income was deposited in an account to support the
states voter registration program. Under state law, counties are required to deposit the income
into the counties’ general funds.

Recommendations:

We recommend that the SOS:

5.	   work with the EAC to resolve the conflict between federal and state law which requires that
      program income be deposited in non-HAVA funds at the state and county levels.
6.	   provide guidance to the counties on how to properly record and report program income
      received from the sale of voter registration lists generated from the state’s voter registration
      database. The SOS should also report such income to the EAC.

SOS Response:

As the auditors have reported, W.Va. State Code 3-2-30 requires, in conflict with EAC code, that
part of the state generated monies be paid to the counties. The remainder of the stategenerated
excess funds is to be placed in a residual fund. County-generated excess funds are
to be placed in the county’s general revenue fund. Relevant portions of the Code read as
follows:
         3-2-30. Public inspection of voter registration records in the office of the clerk of
         the county commission; providing voter lists for noncommercial use; prohibition
         against resale of voter lists for commercial use or profit.
        (e) The fees received by the clerk of the county commission shall be kept in a separate
        fund under the supervision of the clerk for the purpose of defraying the cost of the
        preparation of the voter lists. Any unexpended balance in the fund shall be transferred
        to the general fund of the county commission.



                                                  9
       (f) The Secretary of State may make voter lists available for sale subject to the
       limitations as provided in this section for counties. The cost for a partial list shall be one
       and one-half cents per name plus ten dollars for each disk required; the cost for a
       complete statewide list shall be one-half cent per name and a flat fee of one thousand
       dollars. One cent per name for each voter from a particular county on each partial list
       and one-half cent per name for each voter from a particular county on each statewide list
       sold shall be reimbursed to the appropriate county. The disk fee and one-half cent per
       name associated with a partial list and the flat fee of one thousand dollars associated
       with a complete statewide list shall be deposited to a special revenue account for
       purpose of defraying the cost of preparing the lists.

The auditors recommend that the conflict between state and federal code requirements be
resolved by the EAC and the Secretary. The Secretary believes that conflicts in Code
requirements of other states have been resolved, on some occasions, in the favor of the state
by the EAC. The Secretary requests that, given the relatively small amount involved, the EAC
concede on the matter.

However, should the EAC determine not to grant a exemption, the Secretary asks, for the
reasons given in response to NFR reference No. 2400.05, urges that the state be allowed to
credit the $2,800,000 in state expenditures against the total due.


VI. Accounting and Reporting

The SOS HAVA related accounting records do not agree with the records maintained by the
West Virginia State Treasurer’s Office (STO). Moreover, the SOS does not reconcile the
revolving loan fund and the election fund balances to the STO fund balances.

Revolving Loan Fund:

We noted differences between the SOS’s records as reported on the detailed summary of
activity and the STO fund balance on the Statement of Account. As of August 31, 2009, the
STO’s fund balance was $1,101,767 compared to the $1,555,061 fund balance as reported on
the detailed summary of activity by the SOS, resulting in a difference of $453,295. Also, as of
September 30, 2008 the program income (loan payments from the counties) reported on the
Financial Status Report (FSR) for Section 251 was $1,804,233, and the SOS’s program income
as reported on the detailed summary of activity was $1,441,195 resulting in a difference of
$363,038.


Election Fund:

We noted differences between the SOS’s records as reported on the detailed summary of
activity and the STO fund balance on the Statement of Account. As of August 31, 2009, the
STO’s fund balance was $1,846,633 compared to the $1,951,172 fund balance as reported on
the detailed summary of activity by the SOS, resulting in a difference of $104,539 for the
election fund.




                                                10
As of December 31, 2008 the fund balance reported on the FSR for Section 101 was $348,159,
and the SOS’s fund balance as reported on the detailed summary of activity was $388,747,
resulting in a difference of $40,588.

Also, as of September 30, 2008 the fund balance reported on the FSR for Section 251 was
$1,950,563, and the SOS’s fund balance as reported on the detailed summary of activity was
$1,751,261 resulting in a difference of $199,302.

In preparing the Section 101 and 251 Financial Status Reports, SF 269, it was necessary for the
SOS to evaluate the entries in the accounting records, utilizing Excel worksheets for each fund
to accumulate the revolving loan fund and the election fund data for tracking purposes.
However, as of August 31, 2009 the accounting data utilized by the SOS to account for HAVA
financial activity did not reconcile to the revolving loan fund and the election fund balances
provided by the STO. Thus, the accuracy of the Section 101 and 251 Financial Status Reports,
SF 269s, filed with the EAC is in question.

HAVA Section 902. AUDITS AND REPAYMENT OF FUNDS, Part (a) – Recordkeeping
Requirement.

       Each recipient of a grant or other payment made under this Act shall keep such records
       with respect to the payment as are consistent with sound accounting principles, including
       records which fully disclose the amount and disposition by such recipient of funds, the
       total cost of the project or undertaking for which such funds are used, and the amount of
       that portion of the cost of the project or undertaking supplied by other sources, and such
       other records as will facilitate an effective audit.

Recommendations:

We recommend that the SOS:

7.	 perform monthly reconciliations of the revolving loan fund and the election fund to ensure
    that all program income and disbursements are properly recorded and accounted for in the
    state’s accounting records.

8.	 resolve the differences that have not been reconciled.

9.	 coordinate with EAC the filing of corrected Section 101 and 251 SF 269s.

SOS Response:

This is a new issue and was not identified to the Secretary of State at the exit conference with
the auditors. The Secretary first became aware of the concerns raised only upon receipt of this
NFR. The Secretary has diligently worked to identify and correct a situation that has apparently
existed since 2003.

Data entry error has been identified as the source for most of the account differences. The data
on the past reports is being corrected and amendments will be filed with the EAC. The
Secretary’s review has also identified a lack of formal written policy for accounting for each
transaction. Responsibility for data entry was divided among multiple persons and each
designed their own spreadsheets and systems. The current staff has inherited the systems



                                               11
The following procedural changes have been made to address the concerns raised by the
Findings and Recommendations:

   (a)	    Account reconciliation will be done monthly;
   (b)	    Account entry responsibility will now be performed by the Financial Division rather
           than by Elections Division personnel;
   (c)	    Written S.O.P.s have been, or are being, developed to formalize all processes in
           order ensure consistency and for the benefit of successor employees;
   (d)	    Prior to the audit, some amounts of funds were withheld from interest bearing
           accounts for coverage of day-to-day expenses including HAVA payroll. Henceforth,
           all funds will be deposited in interest bearing accounts upon receipt and withdrawn
           as needed. The average monthly cost for payroll and other usual expenditures is
           $10,000.00. Our accounting process requires approximately eight business days to
           process the bi-monthly payroll and benefits for the employees responsible for the
           activities under HAVA. Therefore, we must draw down a minimal amount of money
           each month to cover these expenses.

Auditor’s Response:

The Secretary of State was not made aware of this finding at the exit conference because the
auditors had not finished the analysis of the information provided by the Secretary of State’s
staff prior to leaving the site. Also, the information was not provided to the auditor until the last
week of our on-site visit. After analyzing the data, the auditor requested more detailed
information from the SOS and determined that as of August 31, 2009 the accounting data
utilized by the SOS to account for the HAVA financial activity did not reconcile to the revolving
loan fund and the election fund balances provided by the STO. The auditor requested a
reconciliation from the SOS to reconcile the differences noted but they could not reconcile the
balances.

                                ****************************************

We provided a draft of our report to the appropriate individuals of the West Virginia SOS, and
the Commission. We considered any comments received prior to finalizing this report.

The draft report was provided to the Executive Director of the EAC for review and comment.The
EAC generally agreed with the report’s reviews and recommendations as well as theWest
Virginia officials initial responses. The EAC’s complete response is included as Appendix A-4.

CG performed its work between September 21, 2009 and January 15, 2010.

a1 
Calverton, Maryland
March 3, 2010




                                                  12
                                                                                   Appendix A-1 





Office of the Secretary of State
                                                   Natalie E. Tennant                 Telephone: (304) 558-6000
Building 1, Suite 157-K                                  Secretary of State
                                                                                     Toll Free: l-866-S0S-VOTE
1900 Kanawha Blvd., East                               State of West Virginia                Fax: (304) 558-0900
Charleston, West Virginia 25305                                                                  www.wvsos.com


                                                     December 14, 2009


    Curtis Crider
    Office of Inspector General
    Election Assistance Commission
    1225 New York Ave. NW - Suite 1100
    Washington, DC 20005


                                                     Re:      RESPONSES OF W.VA. SECRETARY
                                                              OF STATE TO NFR

    Dear Mr. Crider:

    Thank you for the four Notification of Finding and Recommendation supplied to us on
    December 4, 2009. We appreciate the opportunity to respond and we thank the audit
    process for bringing missteps to our attention so that we may immediately correct any
    errors committed in the past.

    Our response to each of the four NFRs follows. I have identified each response by NFR
    reference number.
                                                                                                 0800.01

    NFR#_1 _ _

    AUDIT AREA:                    Interest on State Match

    SOURCEIWORKPAPER REFERENCE NO.: 2400.05

    Date:              September 30 2009




    The matching funds were deposited by the state on June 12, 2003. However, the
    matching funds were not placed in an account which credited interest back to the HAVA
    funds until May 17, 2007.




                                                             13
The Secretary does not dispute the lost interest, and compounded interest, amounts
calculated by the auditors. Nor does the Secretary contest the conclusion that the
interest should have been credited to the HAVA funds.

The Secretary does object to the proposed corrective action recommended.

Some Counties in West Virginia spent $2,683,383 of their own, non-HAVA monies -
which has been recognized by EAC as qualifying for matching funds (see Mr. Edgardo
Cortes' letter to Mr. Jason Williams dated October 24, 2007) to upgrade their voting
systems as required by HAVA. Had those counties not spent the non-HAVA monies,
the State would have been required to spend HAVA monies to upgrade the voting
systems. Had the State spent the $2,683,383 from HAVA monies to upgrade the
counties' systems, then, during the entire timeline from June, 28, 2004 through the
present, the balance of the election fund would have been much less than the actual
balance plus the missing interest amounts.

Rather than requiring the State to transfer an amount equal to the $91,230 in initially
lost interest, plus $5,601 in lost compounded interest, plus any additional compound
interest lost since August 31, 2009, the Secretary proposes crediting the total lost
interest against the $2,683,383 in unclaimed matching funds.




                                                                               0800.03

NFR#    3

AUDIT AREA:      Property Management

SOURCEIWORKPAPER REFERENCE NO.: 4000.01

Date:       October 5, 2009



The Secretary concurs with the findings and the recommended corrective action
designed to remedy a situation that has existed since 2004.

Once the matter was brought to her attention in August, 2009 the Secretary immediately
adopted and implemented proper inventory controls and reporting requirements for the
counties. In January, 2010 and each year thereafter, the counties will be sent a survey
by the Secretary of State to update all the required information.




                                        14

                                                                                 0800.04

NFR#_4_

AUDIT AREA:      Personnel Certifications

SOURCEIWORKPAPER REFERENCE NO.: 2200.01,2200.16

Date:       October 8, 2009



The Secretary concurs with the findings of the auditor. Personnel and policy actions
have taken place to correct the misunderstanding about when the certifications should
be filed. Future certifications will be filed in a timely fashion.

However, the Secretary urges the EAC to determine that the certifications were
accurate, although untimely filed, and that the payroll reflects actual HAVA related work
performed and the state should not be required to transfer any part of the total claimed
payroll expense.

Should it be determined that some, or all, of the payroll should be reimbursed, the
Secretary, for the reasons given in response to NFR reference No. 2400.05, urges that
the state be allowed to credit the $2,683,383 in unclaimed matching funds against the
total due.




                                                                                  0800.06
NFR#_-=6__

AUDIT AREA:       Financial Management System - Program Income

SOURCEIWORKPAPER REFERENCE NO.:                   2500.01

Date:   October 15, 2009



As the auditors have reported, W.Va. State Code §3-2-30 requires, in conflict with EAC
code, that part of the state generated monies be paid to the counties. The remainder of
the state-generated excess funds is to be placed in a special fund. County-generated
excess funds are to be placed in the county's general revenue fund. Relevant portions
of the Code read as follows:

        §3-2-30. Public inspection of voter registration records in the office
        of the clerk of the county commission; providing voter lists for



                                            15

      noncommercial use; prohibition against resale of voter lists for
      commercial use or profit.

       (e) The fees received by the clerk of the county commission shall be kept
      in a separate fund under the supervision of the clerk for the purpose of
      defraying the cost of the preparation of the voter lists. Any unexpended
      balance in the fund shall be transferred to the general fund of the county
      commission.

      (f) The Secretary of State may make voter lists available for sale subject to
      the limitations as provided in this section for counties. The cost for a
      partial list shall be one and one-half cents per name plus ten dollars for
      each disk required; the cost for a complete statewide list shall be one-half
      cent per name and a flat fee of one thousand dollars. One cent per name
      for each voter from a particular county on each partial list and one-half
      cent per name for each voter from a particular county on each statewide
      list sold shall be reimbursed to the appropriate county. The disk fee and
      one-half cent per name associated with a partial list and the flat fee of one
      thousand dollars associated with a complete statewide list shall be
      deposited to a special revenue account for purpose of defraying the cost
      of preparing the lists.

The auditors recommend that the conflict between State and Federal Code
requirements by resolved by the EAC and the Secretary. The Secretary believes that
conflicts in Code requirements of other states have been resolved, on some occasions,
in the favor of the state by the EAC. The Secretary requests that, given the relatively
small amount involved, the EAC concede on the matter.

However, should the EAC determine not to grant a exemption, the Secretary asks, for
the reasons given in response to NFR reference No. 2400.05, urges that the state be
allowed to credit the $2,800,000 in state expenditures against the total due.



This concludes my formal response to the NFRs. Our staff stands ready to supply any
additionally required information or explanation.




                                          atalie D. Tennant
                                         W.Va. Secretary of State




                                       16

                                                                        Appendix A-2



                                 US EAC HAVA Audit

                                  West Virginia SOS

                              SOS Response NFR 2 & 8

                       Inception (April 2003) – August 31, 2009



                                   February 11, 2010


Curtis Crider
Office of Inspector General
Election Assistance Commission
1225 New York Ave. NW – Suite 1100
Washington, DC 20005


                                  Re:	   RESPONSES OF WV SECRETARY
                                         OF STATE TO NFR

Dear Mr. Crider:

Thank you for the two additional Notifications of Finding and Recommendation supplied
to us on January 27, 2010. We appreciate the opportunity to respond and we value the
opportunity to correct any errors committed in the past.

Our response to each of the two additional NFRs follows.          I have identified each
response by NFR reference number.

NFR # _2____

AUDIT AREA:    __Interest on Revolving Loan Fund___

SOURCE/WORKPAPER REFERENCE NO.: 7020.40 7020.41 7020.42 7020.43

Date: _____January 6, 2010__



According to the Finding, the West Virginia Secretary of State failed to deposit into an
interest bearing account certain repayments by counties of loans made to the counties
to assist in the purchase of HAVA required election equipment. The Finding states that
the State owes interest to the HAVA fund from February, 2006, through August 31,
2009.

The Secretary DISPUTES this finding. The loan repayment amounts were deposited
into an interest bearing account beginning April, 2007. Beginning with that date, interest


                                         17

was credited to the HAVA funds. However, Interest could not have been earned from
February, 2006, as alleged in the findings, because the first loan repayment was not
received until June, 2006.




NFR # __8__

AUDIT AREA: __Financial Accounting and Reporting___

SOURCE/WORKPAPER REFERENCE NO.: 3000.034 2120.03

Date:	 ____January 25, 2010__



This is a new issue and was not identified to the Secretary of State at the exit
conference with the auditors. The Secretary first became aware of the concerns raised
only upon receipt of this NFR. The Secretary has diligently worked to identify and
correct a situation that has apparently existed since 2003.

Data entry error has been identified as the source for most of the account differences.
The data on the past reports is being corrected and amendments will be filed with the
EAC. The Secretary’s review has also identified a lack of formal written policy for
accounting for each transaction. Responsibility for data entry was divided among
multiple persons and each designed their own spreadsheets and systems. The current
staff has inherited the systems designed by employees of previous Secretaries of State
which created difficulties in reconciling accounts and understanding responsibilities.

The following procedural changes have been made to address the concerns raised by
the Findings and Recommendations:
   (a)	   Account reconciliation will be done monthly;
   (b)	   Account entry responsibility will now be performed by the Financial Division
          rather than by Elections Division personnel;
   (c)	   Written S.O.P.s have been, or are being, developed to formalize all processes
          in order ensure consistency and for the benefit of successor employees;
   (d)	   Prior to the audit, some amounts of funds were withheld from interest bearing
          accounts for coverage of day-to-day expenses including HAVA payroll.
          Henceforth, no monies will be withheld for day-to-day expenses and all funds
          will be deposited in interest bearing accounts upon receipt and withdrawn
          only as actually needed.



This concludes my formal response to the two additional NFRs. Our staff stands ready
to supply any additionally required information or explanation.


                                       18

Very truly yours,




Natalie E. Tennant
WV Secretary of State




 19

                                                                                     Appendix A-3




                                                                                                       �
�

August�12,�2010�

Curtis�Crider�
U.S.�Election�Assistance�Commission�
Office�of�Inspector�General�
1201�New�York�Avenue�NW,�Suite�300�
Washington�DC�20005�
�
RE:��Comments�to�Performance�Audit�Report�Draft�
�
Dear�Mr.�Crider:�
�
We�would�like�to�amend�our�response�on�page�11,�Section�VI�Accounting�and�Reporting.�Under�the�SOS�
Response�section�we�had�previously�provided�procedural�changes;�however,�based�upon�a�
recommendation�by�our�Chief�Financial�Officer,�we�have�found�that�one�of�these�changes�is�not�feasible�
for�our�accounting�process.��
�
We�would�like�to�strike�the�last�sentence�under�subsection�(d)�which�reads,�“Henceforth,�no�monies�will�
be�withheld�for�day�to�day�expenses�and�all�funds�will�be�deposited�in�interest�bearing�accounts�upon�
receipt�and�withdrawn�only�as�actually�needed”.��
�
We�would�like�to�replace�it�with�the�following�language:�
�“Henceforth,�all�funds�will�be�deposited�in�interest�bearing�accounts�upon�receipt�and�withdrawn�as�
needed.��The�average�monthly�cost�for�payroll�and�other�usual�expenditures�is�$10,000.00.�Our�
accounting�process�requires�approximately�eight�business�days�to�process�the�bi�monthly�payroll�and�
benefits�for�the�employees�responsible�for�the�activities�under�HAVA.�Therefore,�we�must�draw�down�a�
minimal�amount�of�money�each�month�to�cover�these�expenses.“�
�
Your�assistance�with�process�is�appreciated.�Please�let�us�know�if�further�information�is�needed.�
�
�
Very�truly�yours,�
�
�
�
Natalie�E.�Tennant�
West�Virginia�Secretary�of�State�




                                                  20

                                                                    Appendix A-4




                   EAC RESPONSE TO THE DRAFT AUDIT:
                   OIG Performance Audit Report on the Administration of
                   Payments Received Under the Help America Vote Act by the
                   State of West Virginia , for the Period April 28, 2003 Through
                   August 31, 2009

September 17, 2010

MEMORANDUM

To:	         Curtis Crider
             Inspector General

From:	       Thomas Wilkey
             Executive Director

Subject:	    Draft Report Performance Audit Report – “Administration of
             Payments Received Under the Help America Vote Act by the State
             of West Virginia”.

The Election Assistance Commission (EAC) has had an opportunity to conduct a
preliminary review of the Draft Performance Audit Report for West Virginia. We
generally agree with the findings and will work with the West Virginia Secretary of
State (SOS) to resolve the issues identified. We specifically provide the following
comments.

I. Interest on State Match

Audit Recommendation:

We recommend that West Virginia transfer the $91,230 of interest owed on
$805,451 to the election fund for the period June 2004 through August 2009, plus
the additional compounded interest of $5,601 as of August 31, 2009 and any
additional compounded interest owed through the date of the transfer.

EAC Response:

In the past, EAC has recognized non-HAVA monies expended by states as
qualifying for matching Section 251 funds. West Virginia requests the use of
unclaimed matching funds to credit the total lost interest. We will consider the
appropriateness of the SOS’s proposed offsets of questioned costs with other
incurred expenditures allowable under HAVA.




                                       21

II. Interest on the Revolving Loan Fund

Audit Recommendation:

We recommend that SOS officials transfer from the state’s general fund to the
Revolving Loan Fund the interest shortfall estimated to be $13,021 ($12,246 plus
$775) through August 31, 2009, plus any additional interest, including
compounded interest owed through the date of transfer.

EAC Response:

As stated by the draft audit report, the EAC approved the state’s use of the
Revolving Loan Fund but advised that program income including loan
repayments and interest on the repayments be reserved for uses authorized by
HAVA. The EAC will consider appropriate resolution of cost findings related to
interest earned.

IV. Personnel Certifications

Audit Recommendation:

We recommend that the SOS resolve with the EAC the appropriate corrective
action regarding the lack of periodic certifications.

EAC Response:

The EAC agrees with the recommendation to examine corrective action
regarding lack of six-month prior periodic certifications to determine resolution.

V. Program Income

Audit Recommendation:

We recommend that the SOS:

   1.	 Work with the EAC to resolve the conflict between federal and state law
       which requires that program income be deposited in non-HAVA funds at
       the state and county levels.
   2.	 Provide guidance to the counties on how to properly record and report
       program income received from the sale of voter registration lists generated
       from the state’s voter registration database. The SOS should also report
       such income to the EAC.




                                       22

EAC Response:

As recommended, the EAC will analyze, with General Counsel input, the
differences in state law and HAVA and consider appropriate resolution of this
issues and any related questioned costs.

VI. Accounting and Reporting

Audit Recommendation:

We recommend that the SOS:

   1.	 Perform monthly reconciliations of the Revolving Loan Fund and the
       election fund to ensure that all program income and disbursements are
       properly recorded and accounted for in the state’s accounting records.
   2.	 Resolve the differences that have not been reconciled.
   3.	 Coordinate with EAC the filing of corrected Section 101 and 251 SF 269s.

EAC Response:

The EAC will work with the SOS to resolve differences in the Revolving Loan
Fund and the state treasurer’s account. Further, we will look at the current
practice of defining loan repayments as program income.




                                       23

                                                                                       Appendix B
                                    AUDIT METHODOLOGY



Our audit methodology included:

•	 Assessing audit risk and significance within the context of the audit objectives.

•	 Obtaining an understanding of internal control that is significant to the administration of the
   HAVA funds.

•	 Understanding relevant information systems controls as applicable.

•	 Identifying sources of evidence and the amount and type of evidence required.

•	 Determining whether other auditors have conducted, or are conducting, audits of the
   program that could be relevant to the audit objectives.

To implement our audit methodology, below are some of the audit procedures we performed:

•	 Interviewed appropriate SOS employees about the organization and operations of the HAVA
   program.

•	 Reviewed prior single audit reports and other reviews related to the state’s financial
   management systems and the HAVA program for the last six years.

•	 Reviewed policies, procedures and regulations for the SOS’s management and accounting
   systems as they relate to the administration of HAVA programs.

•	 Analyzed the inventory lists of equipment purchased with HAVA funds.

•	 Tested major purchases and supporting documentation.

•	 Tested randomly sampled payments made with the HAVA funds.

•	 Verified support for reimbursements to local governments (counties, cities, and
   municipalities).

•	 Reviewed certain state laws that impacted the election fund.

•	 Evaluated compliance with the requirements for accumulating financial information reported
   to the Commission on the financial status reports, Form SF-269, accounting for property,
   purchasing HAVA related goods and services, and accounting for salaries.

•	 Verified the establishment and maintenance of an election fund.




                                                24
•	 Conducted site visits of selected counties to perform the following:

     �   Observe equipment purchased with HAVA funds for proper accounting and
         safeguarding
     �   Ensure compliance with HAVA Act.




                                               25

                                                                          Appendix C
                                                                                     �


           MONETARY IMPACT AS OF AUGUST 31, 2009



                                                Questioned    Additional Funds for
              Description                         Costs             Program
Timely deposit of interest earned on                     $0                $96,831
state matching funds.

Timely deposit of interest earned on the
Revolving Loan Fund                                      $0               $13,021

Semi-annual certifications of full-time
employment on HAVA activities not filed            $124,276                    $0

Program income not deposited to HAVA
election fund                                            $0              $265,101

Total                                              $124,276              $374,953




                                           26
                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1201 New York Ave. NW - Suite 300
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-0957


To Report Fraud,      By Mail: 	U.S. Election Assistance Commission
Waste and Abuse                 Office of Inspector General
Involving the U.S.              1201 New York Ave. NW - Suite 300
Election Assistance             Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
